No. 20-7612
IN THE

Supreme Court of the United States
MICHAEL D. JOHNSON,

Petitioner,

v.
INDIANA,
Respondent.
On Petition for a Writ of Certiorari
To The Supreme Court of Indiana
BRIEF OF AMICI CURIAE 98 LAW PROFESSORS
IN SUPPORT OF PETITIONER MICHAEL D.
JOHNSON
COLIN MILLER
Professor and Associate
Dean for Faculty
Development
UNIVERSITY OF SOUTH
CAROLINA SCHOOL OF LAW

BENJAMIN MILLER*
Counsel of Record
JESSICA BRAND
KOSHA TUCKER
AMY WEBER
YEN MAI
WREN COLLECTIVE, LLC
3212 Northlake Pkwy. NE
#450036
Atlanta, GA 30345
(512) 537-3248
ben.miller@wrencollective.com

Counsel for Amici Curiae 98 Law Professors
April 26, 2021

i
TABLE OF CONTENTS
PAGE
TABLE OF AUTHORITIES ....................................... ii
INTEREST OF AMICI CURIAE ................................ 1
INTODUCTION AND SUMMARY OF THE
ARGUMENT ............................................................... 2
ARGUMENT ............................................................... 4
I.

An officer’s claim of probable cause or
reasonable suspicion requires an
actual, good faith belief grounded on
facts which make his belief reasonable ........ 4

II. An officer’s subjective motivation is
irrelevant only when a seizure, search,
or frisk is “otherwise lawful.” ........................ 8
III. Minnesota v. Dickerson and the
necessity of good faith for frisks. ................. 12
CONCLUSION .......................................................... 18
APPENDIX
List of amici curiae ............................................ App. A

ii
TABLE OF AUTHORITIES
Cases
Carroll v. United States,
267 U.S. 132 (1925) ............................................. 2, 4
Director General v. Kastenbaum,
263 U. S. 25 (1923) .................................................. 4
Horton v. California,
496 U.S. 128 (1990) ................................. 3, 8, 10, 16
Minnesota v. Dickerson,
508 U.S. 366 (1993) ................... 2, 11, 12, 15, 17, 19
Robinson v. United States,
414 U.S. 218 (1973) ............................................. 8, 9
Scott v. United States,
436 U.S. 128 (1978) ........................................... 2, 10
State v. Dickerson,
481 N.W.2d 840 (Minn. 1992) ............................... 13
State v. Fleenor,
989 P.2d 784 (Idaho App. 1999) ............................ 16
Terry v. Ohio,
392 U.S. 1 (1968) ................................................. 6, 8
United States v. Cortez,
449 U.S. 411 (1981) ................................................. 6
United States v. Richardson,
657 F.3d 521 (7th Cir. 2011) ................................. 16

iii
United States v. Ross,
456 U.S. 798 (1982) ................................................. 5
Whren v. United States,
517 U.S. 806 (1996) ...................................... 2, 8, 11
Other Authorities
Gabriel J. Chin & Charles J. Vernon, Reasonable but
Unconstitutional: Racial Profiling and the Radical
Objectivity of Whren v. United States, 83 Geo.
Wash. L. Rev. 882 (2015 ....................................... 17
George E. Dix, Subjective “Intent” as a Component of
Fourth Amendment Reasonableness, 76 Miss. L.J.
373 (2006) .............................................................. 17
Horton v. California.” Petitioner’s Reply Brief on the
Merits, Minnesota v. Dickerson, 508 U.S. 366 (No.
91-2019), 1993 WL 286634 (Jan. 23, 1993) .......... 13
JOSEPHINE ROSS, A FEMINIST CRITIQUE OF
POLICE STOPS 140-51 (2020) ............................... 3
Kami Chavis Simmons, The Legacy of Stop and
Frisk: Addressing the Vestiges of a Violent Police
Culture, 49 Wake Forest L. Rev. 849 (2014) .......... 3
Kit Kinports, Veteran Police Officers and ThreeDollar Steaks: The Subjective/Objective
Dimensions of Probable Cause and Reasonable
Suspicion, 12 U. Pa. J. Const. L. 751 (2010) ........ 18

iv
Nicole Smith Futrell, Vulnerable, Not Voiceless:
Outsider Narrative in Advocacy Against
Discriminatory Policing, 93 N.C. L. Rev. 1597
(2015) ....................................................................... 3
Orin S. Kerr, The Questionable Objectivity of Fourth
Amendment Law, 99 Tex. L. Rev. 447 (2020) ...... 17
Transcript of Oral Argument, Minnesota v.
Dickerson, 508 U.S. 366 (No. 91-2019), 1993 WL
761230 (March 3, 1993)......................................... 15

INTEREST OF AMICI CURIAE
Amici curiae1 are 98 law professors and
scholars at U.S. law schools who teach,
research, and write about criminal law and
criminal procedure. They share a common
interest in ensuring a proper, practical
application
of
this
Court’s
precedent
stemming from Terry v. Ohio, consistent with
the original understanding of the Fourth
Amendment. Amici are especially interested
in this case because it presents an important
question about the scope of fundamental
Fourth Amendment protections, recognizing
the need for police, the public, and courts to
have clear guidance on when a person may be
constitutionally subject to a frisk.
A full list of amici is attached as Appendix A.2

No counsel for a party authored this brief in
whole or in part, and no such counsel or any party
made a monetary contribution intended to fund the
preparation or submission of this brief. No person
other than amici curiae made any monetary
contribution to its preparation or submission. Amici
curiae gave notice of their intent to file this brief to all
parties in accordance with Rule 37.2 and all parties
provided written consent.
2 Amici file this brief solely as individuals.
Institutional
affiliations
are
provided
for
identification purposes only.
1

2
INTRODUCTION AND SUMMARY OF
THE ARGUMENT
This Court has held that “‘[s]ubjective intent
alone...does not make otherwise lawful conduct illegal
or unconstitutional.’” Whren v. United States, 517
U.S. 806, 813 (1996) (quoting Scott v. United States,
436 U.S. 128, 138 (1978)). In other words, if a court
finds that a seizure, search, or frisk was “otherwise
lawful,” it is constitutional even if the seizure, search,
or frisk was prompted by an ulterior motive. Id. at
812.
This case, however, deals with a separate,
predicate question: Is an officer’s actual, good faith
belief essential when determining whether a seizure,
search, or frisk was in fact lawful? This Court
consistently has answered this question in the
affirmative, finding that an officer’s claim of probable
cause or reasonable suspicion requires an actual, good
faith belief grounded on facts “which in the judgment
of the court would make his faith reasonable.” Carroll
v. United States, 267 U.S. 132, 161-62 (1925) (quoting
Director General v. Kastenbaum, 263 U.S. 25, 28
(1923)).
Indeed, in Minnesota v. Dickerson, 508 U.S.
366 (1993), this Court addressed the precise question
in the case at hand: Can an officer commence or
continue a frisk without an actual, good faith belief
that a suspect is armed and presently dangerous?
Consistent with Carroll, this Court (1) concluded that
a frisk must be guided by an actual, good faith belief

3
that a suspect is armed and presently dangerous; and
(2) explicitly distinguished Dickerson from cases such
as Horton v. California, 496 U.S. 128 (1990), in which
ulterior motives were deemed irrelevant to “otherwise
lawful” seizures, searches, and frisks.
This Court should grant certiorari because
decisions like the opinion below are entirely
inconsistent with this Court’s opinion in Dickerson
and authorize violence against innocent citizens,
including disproportionate violence against citizens of
color. See, e.g., Nicole Smith Futrell, Vulnerable, Not
Voiceless: Outsider Narrative in Advocacy Against
Discriminatory Policing, 93 N.C. L. Rev. 1597, 1601
(2015) (“[O]f the over 4.4 million people stopped from
2004 to 2012, eighty-eight percent were innocent of
any criminal wrongdoing as measured by the fact that
they were not arrested or given a summons. Further,
Blacks and Latinos accounted for just short of ninety
percent of the 4.4 million stops.”); Kami Chavis
Simmons, The Legacy of Stop and Frisk: Addressing
the Vestiges of a Violent Police Culture, 49 Wake
Forest L. Rev. 849, 850 (2014) (“Stop and frisk has
long been a controversial law enforcement measure,
particularly among black and Latino communities,
two groups who disproportionately are subject to this
policy.”); see also JOSEPHINE ROSS, A FEMINIST
CRITIQUE OF POLICE STOPS 140-51 (2020)
(discussing the lasting trauma caused by stops and
frisks).

4
ARGUMENT
I. An officer’s claim of probable cause or
reasonable suspicion requires an actual,
good faith belief grounded on facts which
make his belief reasonable.
This Court first recognized that a police
officer’s claim of probable cause requires good faith in
Director General v. Kastenbaum, 263 U. S. 25 (1923).
In Kastenbaum, two police officers arrested Samuel
Kastenbaum at his home without a warrant after
suspecting that he stole twenty-one tubs of butter
from a freight car. Id. at 26. In addressing
Kastenbaum’s false imprisonment action, this Court
held that “good faith is not enough to constitute
probable cause. That faith must be grounded on facts
within knowledge of the Director General’s agent,
which in the judgment of the court would make his
faith reasonable.” Id. at 27.
Subsequently, this Court cited this language
from Kastenbaum in Carroll v. United States, 267
U.S. 132 (1925), which established the automobile
exception to the warrant requirement. Immediately
after citing this language from Kastenbaum, this
Court applied the test it set forth to find that the
officers in Carroll had an actual, good faith belief
reasonably grounded on facts within their knowledge.
Id. at 161-62. According to the Court, “the facts and
circumstances within their knowledge and of which
they had reasonably trustworthy information were
sufficient in themselves to warrant a man of
reasonable caution in the belief that intoxicating

5
liquor was being transported in the automobile which
they stopped and searched.” Id. at 162.
Finally, in United States v. Ross, 456 U.S. 798
(1982), this Court again cited this language from
Kastenbaum in another automobile exception case.
Specifically, the Ross Court held:
[T]he probable-cause determination
must be based on objective facts that
could justify the issuance of a warrant by
a magistrate and not merely on the
subjective good faith of the police
officers. “‘[A]s we have seen, good faith is
not enough to constitute probable cause.
That faith must be grounded on facts
within knowledge of the [officer], which
in the judgment of the court would make
his faith reasonable.’”
Id. at 808 (quoting Carroll, 267 U.S. at 161-62).
Through these opinions, this Court has held
that good faith is a necessary, but not sufficient,
condition for a finding of probable cause, and, by
implication, reasonable suspicion. To establish
probable cause or reasonable suspicion, a police
officer needs both (1) good faith grounded on facts
within
his
knowledge;
and
(2)
objective
reasonableness. Or, put another way, a police officer
needs a good faith hypothesis consistent with
probable cause or reasonable suspicion that is both

6
grounded on facts within his knowledge and
objectively reasonable.
This Court employed this hypothesis testing
analysis in its landmark opinion in Terry v. Ohio, 392
U.S. 1 (1968).3 In Terry, Detective Marti McFadden
stopped and frisked Robert Terry and Richard Chilton
after seeing them looking in store windows and
engaging in other suspicious behavior. Id. at 6-7. This
Court held:
The actions of Terry and Chilton were
consistent with McFadden’s hypothesis
that these men were contemplating a
daylight
robbery—which,
it
is
reasonable to assume, would be likely to
involve the use of weapons—and nothing
in their conduct from the time he first
noticed them until the time he
confronted them and identified himself
This Court also applied this analysis in United
States v. Cortez, 449 U.S. 411, 414-21 (1981), finding
that border patrolmen properly stopped a pickup
truck because they had a good faith “hypothesis that
the pickup vehicle approached milepost 122 from the
east and thereafter returned to its starting point” that
was grounded on facts within their knowledge and
objectively reasonable. In doing so, the Cortez Court
analogized the officers’ inferences and deductions
from the facts in their knowledge to the common sense
conclusions that practical people make about human
behavior and jurors make about evidence. Id. at 418.
3

7
as a police officer gave him sufficient
reason to negate that hypothesis.
Id. at 28.
In turn, this led the Terry Court to conclude:
We cannot say his decision at that point
to seize Terry and pat his clothing for
weapons was the product of a volatile or
inventive
imagination,
or
was
undertaken simply as an act of
harassment; the record evidences the
tempered act of a policeman who in the
course of an investigation had to make a
quick decision as to how to protect
himself and others from possible danger,
and took limited steps to do so.
Id.
This holding in turn suggests the two ways in
which the detective would have lacked reasonable
suspicion to conduct the stop and frisk. First, the
detective’s decision to stop and frisk might have been
“the product of a volatile or inventive imagination,”
i.e., objectively unreasonable. For example, it would
be objectively unreasonable for a detective to stop and
frisk a woman and young child who were looking
through a toy store window at 2:00pm. Even if the
detective had the actual, good faith belief that they
were contemplating a daylight robbery, his stop and

8
frisk would be unconstitutional because that belief
would be objectively unreasonable.
Second, the detective’s decision to stop and
frisk might have been “undertaken simply as an act
of harassment,” i.e., undertaken in bad faith. For
example, it would be in bad faith for a detective to stop
and frisk an anxious-looking man who was peering
through a jewelry store window at 2:00pm if the
detective (a) thought the man was merely nervous
about buying an engagement ring; and (b) simply
wanted to harass the man. Even if an objectively
reasonable officer could have concluded that the man
was contemplating a daylight robbery, the detective’s
stop and frisk would be unconstitutional because it
was not based on such a conclusion and was instead
done in bad faith, i.e., simply to harass.
II. An officer’s subjective motivation is
irrelevant only when a seizure, search, or
frisk is “otherwise lawful.”
A sharp line can be drawn between this
harassment language in Terry and this Court’s
opinions in cases such as Whren v. United States, 517
U.S. 806 (1996), Robinson v. United States, 414 U.S.
218 (1973), and Horton v. California, 496 U.S. 128
(1990).
In Whren, 517 U.S. at 808-09, D.C. vice-squad
officers stopped two African American men in a truck,
and one of the officers “immediately observed two

9
large plastic bags of what appeared to be crack
cocaine in petitioner Whren’s hands.” The petitioners
accepted that the officer “had probable cause to
believe that various provisions of the District of
Columbia traffic code had been violated.” Id. The
petitioners, however, claimed that, “‘in the unique
context of civil traffic regulations’ probable cause is
not enough.” Id. at 810. Instead, the petitioners
argued that the test should be “whether a police
officer, acting reasonably, would have made the stop
for the reason given.” Id. Otherwise, they argued,
“police officers might decide which motorists to stop
based on decidedly impermissible factors, such as the
race of the car’s occupants.” Id. This Court rejected
the petitioners’ argument, finding that an ulterior
motive doesn’t strip an officer of his legal justification
to conduct a stop. See id. at 812.
Similarly, in Robinson v. United States, 414
U.S. 218, 220-23 (1973), a police officer arrested Willie
Robinson, Jr. for operating a motor vehicle after the
revocation of his operator’s permit and then
conducted a search incident to that arrest. Robinson
conceded that the officer had probable cause to arrest
him but claimed that the search was unconstitutional
because the officer was neither afraid of him nor
suspected that he was armed. See id. at 220. This
Court rejected this argument, concluding that “[s]ince
it is the fact of custodial arrest which gives rise to the
authority to search, it is of no moment that [the
officer] did not indicate any subjective fear of the

10
respondent or that he did not himself suspect that
respondent was armed. Id. at 236.”4
Finally, in Horton v. California, 496 U.S. 128,
131-32 (1990), a sergeant filed an affidavit for a
search warrant, claiming that he had probable cause
to search a home for the proceeds of a robbery and the
weapons used by the robbers. The magistrate,
however, only authorized a search for the proceeds.
Id. at 132. During the subsequent search, the
sergeant saw and seized weapons that were in plain
view. Id. In finding that the defendant’s motion to
suppress the weapons was properly denied, this Court
held that “evenhanded law enforcement is best
achieved by the application of objective standards of
conduct, rather than standards that depend upon the
subjective state of mind of the officer.” Id. at 138.
Therefore, “[t]he fact that an officer is interested in an
item of evidence and fully expects to find it in the
course of a search should not invalidate its seizure if
the search is confined in area and duration by the
terms of a warrant or a valid exception to the warrant
requirement.” Id. The Horton Court later added that
“[i]f the interest in privacy has been invaded, the
violation must have occurred before the object came
This Court later cited this language from
Robinson in Scott v. United States, 436 U.S. 128, 133
n.6 & 138 (1978), to hold that the subjective
motivations of government agents conducting a
wiretap did not invalidate the wiretap, which was
issued based upon a showing of probable cause.
4

11
into plain view and there is no need for an
inadvertence limitation on seizures to condemn it.”
Id. at 141.
This last sentence from Horton reinforces the
hard line drawn above between this line of cases and
the harassment language in Terry. In Whren, there
was no question that the officers had probable cause
to stop the truck, in Robinson, the defendant conceded
that there was probable cause to arrest, and, in
Horton, it was undisputed that the sergeant was in
the defendant’s home pursuant to a valid warrant.
Therefore, the officers’ actions in these cases was
constitutional because “‘[s]ubjective intent alone . . .
does not make otherwise lawful conduct illegal or
unconstitutional.’” Whren v. United States, 517 U.S.
806, 813 (1996) (quoting Scott v. United States, 436
U.S. 128, 138 (1978)).
As a result, as implied in Horton, none of these
cases speak to the predicate question of whether an
officer’s actual, good faith belief is essential in
determining whether a seizure, search, or frisk was in
fact lawful. Therefore, again, a hard line can be drawn
between these cases and the harassment language in
Terry. And this isn’t merely a hypothetical line; it’s a
line this Court drew in Minnesota v. Dickerson, 508
U.S. 366 (1993).

12
III. Minnesota v. Dickerson and the necessity
of good faith for frisks.
In Dickerson, Minneapolis police officers saw
Timothy Dickerson leaving an apartment building
that one of the officers considered “to be a notorious
‘crack house.’” Id. at 368. Dickerson began walking
toward the officers, but, upon spotting their squad car
and making eye contact with one of them, he
“abruptly halted and began walking in the opposite
direction.” Id. After Dickerson turned and entered an
alley on the side of the apartment building, the
officers ordered him “to stop and submit to a patdown
search.” Id.
One of the officers, Officer Vernon Rose, then
conducted a patdown search and felt “‘a small, hard
object wrapped in plastic’” in Dickerson’s pocket. Id.
at 377. The “officer made ‘no claim that he suspected
this object to be a weapon.’” Id. at 378. Instead, “the
officer determined that the lump was contraband,”
but only “after ‘squeezing, sliding and otherwise
manipulating the contents of the defendant's pocket’a pocket which the officer already knew contained no
weapon.” Id. Finally, the officer reached into
Dickerson’s “pocket and retrieved a small plastic bag
containing one fifth of one gram of crack cocaine.” Id.
at 369.
The Supreme Court of Minnesota concluded
that the officer’s manipulation of the lump and
seizure of the crack cocaine violated the Fourth
Amendment. See State v. Dickerson, 481 N.W.2d 840,

13
844 (Minn. 1992). Specifically the court observed that
“[t]he officer testified that he was sure he had found
crack cocaine only after (1) feeling a lump, (2)
manipulating it with his fingers, and (3) sliding it
within the defendant’s pocket. That testimony belies
any notion that he ‘immediately’ knew what he had
found.” Id. The court acknowledged Horton’s holding
“that an improper motive does not invalidate an
otherwise lawful search.” Id. But it then ruled that
“[w]hen the officer assures himself or herself that no
weapon is present, the frisk is over.” Id.
In its Reply Brief on the Merits to this Court,
the State of Minnesota argued that the state supreme
court improperly focused on what Officer Rose was
thinking rather than “the objective circumstances of
the search . . . set forth by this Court in Horton v.
California.” Petitioner’s Reply Brief on the Merits,
Minnesota v. Dickerson, 508 U.S. 366 (No. 91-2019),
1993 WL 286634 (Jan. 23, 1993) at 7. Specifically, the
State asserted that “[i]t was entirely reasonable for
Officer Rose to suspect that Respondent could be
carrying both weapons and drugs. Officer Rose had
extensive experience in finding both drugs and
weapons at the crack house from which he saw
Respondent exit.” Id. at *7 n.11.
The State, represented by Michael Freeman,
pressed this Horton/objective reasonableness issue
extensively at oral arguments, including the following
exchange:

14
QUESTION: Could a reasonable
trier of fact conclude that the officer
went beyond the bounds of what was
necessary in order to determine if the
subject had a weapon?
MR. FREEMAN: Your Honor, a
reasonable trier of fact could make that
conclusion, but we believe since the
Minnesota Supreme Court used the
subjective standard rejected in Horton,
that that so colored their judgment that
they did not provide the proper analysis.
I would point to the Court -QUESTION: Well did -- would you
agree, then, that a police officer cannot,
in conducting a Terry frisk, go beyond
what is necessary to make the
determination that the subject does or
does not have a weapon?
MR. FREEMAN: Yes, Your
Honor, the limits of the Terry search say
that that is a search strictly for -- is a
search for weapons. And it -- the position
is that, in fact, if -- at the time he decided
it was not a weapon, that that search
must stop.

15
Transcript of Oral Argument, Minnesota v. Dickerson,
508 U.S. 366 (No. 91-2019), 1993 WL 761230 (March
3, 1993) at 6.
The Dickerson Court ultimately affirmed the
state supreme court’s opinion, first noting that “the
dispositive question before this Court is whether the
officer who conducted the search was acting within
the lawful bounds marked by Terry at the time he
gained probable cause to believe that the lump in
respondent's jacket was contraband.” Minnesota v.
Dickerson, 508 U.S. 366, 377 (1993). This Court
acknowledged that “[t]he State District Court did not
make precise findings on this point,” but noted the
factual findings by the Minnesota courts that (1)
Officer Rose did not think the small, hard object in
Dickerson’s pocket was a weapon upon touching it;
and (2) only realized it was drugs after further
manipulating it. Id. at 377-78.
These threadbare facts were enough for the
Dickerson Court’s conclusion that “the officer’s
continued exploration of respondent’s pocket after
having concluded that it contained no weapon was
unrelated to ‘[t]he sole justification of the search
[under Terry: ] . . . the protection of the police officer
and others nearby.’” Id. at 378 (quoting Terry v. Ohio,
392 U.S. 1, 29 (1968). Therefore, “[b]ecause this
further search of respondent’s pocket was
constitutionally invalid, the seizure of the cocaine
that followed is likewise unconstitutional.” Id. (citing
Horton, 496 U.S., at 140, 110 S.Ct., at 2309-2310.).

16
The Dickerson Court ostensibly cited Horton in
this way to distinguish it. As noted, in Horton, the
sergeant’s state of mind was irrelevant because he
was in the defendant’s home pursuant to a valid
search warrant when he saw and seized weapons that
were in plain view. See Horton, 496 U.S. at 138.
Conversely, in Dickerson, the officer’s state of mind
was relevant and dispositive because his testimony
that he knew the small, hard object was not a weapon
meant that he was precluded from subsequently
pinching that object to determine that it was drugs.
See Dickerson, 508 U.S. at 377-78.
Indeed, the officer’s testimony about his state
of mind had to be dispositive because the Dickerson
Court acknowledged that it lacked “precise findings”
on the controlling question and had to rely exclusively
on the officer’s testimony about what he was thinking.
Id. There was no discussion about whether an
objectively reasonable officer might have concluded
that the object was a weapon despite many courts
concluding that officers conducting frisks held
objectively reasonable beliefs that small, hard objects
were weapons. See, e.g., United States v. Richardson,
657 F.3d 521, 524 (7th Cir. 2011) (“Courts, including
ours, have concluded that an officer who encounters a
small, hard object during a pat-down may have
reasonable suspicion to believe the object is a
weapon.”); State v. Fleenor, 989 P.2d 784, 789 (Idaho
App. 1999) (holding that it was reasonable for an
officer to believe that a hard, one and one-half to two

17
inch object was a small pocket knife); Colomo v. State,
687 So.2d 880, 880 (Fla. App. 2nd 1997) (finding that
it was reasonable for an officer to believe that a small,
approximately one and one-half inch object contained
a weapon).
The Dickerson Court did not need to address
whether an objectively reasonable officer might have
thought that the small, hard object in Dickerson’s
pocket was a weapon because Officer Rose lacked an
actual, good faith belief that it was a weapon. See
Dickerson, 508 U.S. at 377-78. In the absence of such
good faith, Officer Rose’s subsequent manipulation of
the object was unconstitutional, even if it was
objectively reasonable. See Orin S. Kerr, The
Questionable Objectivity of Fourth Amendment Law,
99 Tex. L. Rev. 447, 460 (2020) (“Although the Court
did not dwell on the point in Dickerson, its analysis
appears to rest the scope of Terry frisks on the officer's
subjective intent.”); Gabriel J. Chin & Charles J.
Vernon, Reasonable but Unconstitutional: Racial
Profiling and the Radical Objectivity of Whren v.
United States, 83 Geo. Wash. L. Rev. 882 (2015)
(“Professor Dix plausibly characterizes Minnesota v.
Dickerson . . . as ‘appear[ing] to rely on a purely
subjective approach in defining the scope of a
permissible weapons frisk.’”); George E. Dix,
Subjective “Intent” as a Component of Fourth
Amendment Reasonableness, 76 Miss. L.J. 373, 416
(2006) (observing that the Dickerson Court appeared
to rely on a purely subjective approach in defining the
scope of a permissible weapons frisk).

18
A similar analysis applies in the case at hand,
except it pertains to the commencement of the frisk
rather than its continuation. In this case, Agent
Wilkinson never testified that he believed, feared, or
suspected that Mr. Johnson was armed. See Pet. App.
at 32a–54a; (Tr. at II:102–31). Instead, Agent
Wilkinson testified that it was “common” to pat down
people in the interview room “for criminal incidents in
particular.” (Tr. at II:112). Therefore, Agent
Wilkinson did not have an actual, good faith belief
that Johnson was armed and presently dangerous. As
a result, his frisk of Johnson was unconstitutional,
even if there were facts that could have made the frisk
objectively reasonable. See Kit Kinports, Veteran
Police Officers and Three-Dollar Steaks: The
Subjective/Objective Dimensions of Probable Cause
and Reasonable Suspicion, 12 U. Pa. J. Const. L. 751,
775 (2010) (“The policies the Court claims underlie
the Fourth Amendment therefore suggest that a frisk
cannot be justified where the police officer actually
believed the suspect posed no danger.”).
CONCLUSION
This Court concluded in Dickerson that a frisk
must be guided by a good faith belief that a suspect is
armed and presently dangerous. Specifically, in
Dickerson, this Court held that an officer’s frisk of a
suspect’s pocket had to halt once the officer had
concluded that it did contain a weapon. Similarly, in
the present case, when the officer never had an

19
actual, good faith belief that Mr. Johnson was armed
and presently dangerous, the officer could not
commence a frisk. This Court should grant certiorari
because opinions like the one in this case do violence
to this Court’s opinion in Dickerson and authorize
violence against innocent citizens, including
disproportionate violence against citizens of color.

Respectfully submitted,
COLIN MILLER
Professor and Associate
Dean for Faculty
Department
University of South
Carolina
School of Law

BENJAMIN MILLER*
Counsel of Record
JESSICA BRAND
KOSHA TUCKER
AMY WEBER
YEN MAI
WREN COLLECTIVE, LLC
3212 Northlake Pkwy. NE
#450036
Atlanta, GA 30345
(512) 537-3248
ben.miller@wrencollective.com

Counsel for Amici Curiae 96 Law Professors

April 26, 2021

APPENDIX
Deborah Aherns
Associate Professor of Law
Seattle University School of Law
Maryam Ahranjani
Don L. & Mabel F. Dickason Professor
University of New Mexico School of Law
Peter Arnella
Professor of Law Emeritus
UCLA School of Law
Laura I Appleman
Van Winkle Melton Professor of Law
Willamette University College of Law
Hadar Aviram
Professor of Law
UC Hastings College of the Law
W. David Ball
Professor
Santa Clara University School of Law
Shima Baradaran Baughman
Associate Dean of Research and Faculty
Development
University of Utah S.J. Quinney College of Law
Lara Bazelon
Professor of Law and Director of the Criminal &
Juvenile Justice and Racial Justice Clinics
University of San Francisco School of Law

2A

Valena Beety
Professor of Law and Deputy Director of the
Academy for Justice
Arizona State University Sandra Day O’Connor
College of Law
Robert M. Bloom
Professor of Law and Dean’s Distinguished Scholar
Boston College Law School
John Blume
Samuel F. Leibowitz Professor of Trial Techniques
Cornell Law School
Michal Buchhandler-Raphael
Assistant Professor of Law
Widener Commonwealth Law School
John Burkoff
Professor Emeritus of Law
University of Pittsburgh School of Law
Arthur Campbell
Professor of Law Emeritus
California Western School of Law
Bennett Capers
Professor of Law and Director of Center on Race,
Law & Justice
Fordham University School of Law
Jenny Carroll
Wiggins, Childs, Quinn & Pantazis Professor of Law
University of Alabama School of Law
Gabriel “Jack” Chin
Edward L. Barrett Jr. Chair & Martin Luther King
Jr. Professor of Law
UC Davis School of Law
Jessica Gabel Cino
Professor of Law
Georgia State University College of Law

3A

Geoffrey Corn
The Gary A. Kuiper Distinguished Professor of
National Security Law
South Texas College of Law Houston
Russell Covey
Professor of Law
Georgia State University College of Law
Angela J. Davis
Distinguished Professor of Law
American University Washington College of Law
Joshua Dressler
Distinguished University Professor and Professor of
Law Emeritus
The Ohio State University Moritz College of Law
Steven Duke
Professor Emeritus of Law
Yale Law School
Meredith Duncan
George Butler Research Professor of Law
University of Houston Law Center
Jelani Jefferson Exum
Philip J. McElroy Professor of Law
University of Detroit Mercy School of Law
Lisa S. Faigman
Professor (Retired)
University of California Hastings College of the Law
Ian Farrell
Associate Professor of Law
Denver University Sturm College of Law
Shawn Fields
Assistant Professor of Law
Campbell University Norman Adrian Wiggins School
of Law

4A
Nicole Smith Futrell
Associate Professor
CUNY School of Law
Brian Gallini
Dean and Professor of Law
Willamette University College of Law
Norman Garland
Professor of Law
Southwestern Law School
Brandon Garrett
L. Neil Williams, Jr. Professor of Law
Duke University School of Law
Cynthia Godsoe
Professor of Law
Brooklyn Law School
Lauryn P. Gouldin
Crandall Melvin Associate Professor of Law
Syracuse University College of Law
Catherine Grosso
Professor of Law
Michigan State University College of Law
Bruce Green
Louis Stein Chair of Law; Director, Stein Center
Fordham University School of Law
Sandra Guerra Thompson
Newell H. Blakely Chair; Director, Criminal Justice
Institute
University of Houston Law Center
David A. Harris
Sally Ann Semenko Endowed Chair and Professor of
Law
University of Pittsburgh School of Law

5A
Kristin Henning
Blume Professor of Law
Director, Juvenile Justice Clinic & Initative
Georgetown University Law Center
Alexis Hoag
Associate Research Scholar in the Faculty of Law;
Lecturer in Law
Columbia Law School
Jancy Hoeffel
Catherine D. Pierson Professor of Law
Tulane University School of Law
Thaddeus Hoffmeister
Professor of Law
University of Dayton School of Law
Andrew Horwitz
Assistant Dean for Experiential Education
Roger Williams University School of Law
Babe Howell
Professor
CUNY School of Law
Eisha Jain
Assistant Professor of Law
University of North Carolina School of Law
David Jaros
Professor of Law
University of Baltimore School of Law
Russell Jones
Jesse N. Stone, Jr. Endowed Professor
Southern University Law Center
Nicholas Kahn-Fogel
Professor of Law
University of Arkansas at Little Rock William H.
Bowen School of Law

6A
Kit Kinports
Polisher Family Distinguished Faculty Scholar
Professor of Law
Penn State Law
Lee Kovarsky
Bryant Smith Chair in Law
University of Texas School of Law
Susan Kuo
Associate Dean for Academic Affairs
University of South Carolina School of Law
Corinna Barrett Lain
S. D. Roberts & Sandra Moore Professor of Law
University of Richmond School of Law
Richard Leo
Hamill Family Professor of Law and Psychology
University San Francisco School of Law
Ken Levy
Holt B. Harrison Professor of Law
LSU Paul M. Hebert Law Center
Cortney Lollar
James & Mary Lassiter Associate Professor
University of Kentucky J. David Rosenberg College
of Law
Susan Mandiberg
Lewis & Clark Distinguished Professor of Law
Lewis & Clark Law School
Michael Mannheimer
Professor of Law
Northern Kentucky University - Salmon P. Chase
College of Law
M. Isabel Medina
Ferris Family Distinguished Professor of Law
Loyola University New Orleans College of Law

7A
Daniel Medwed
University Distinguished Professor of Law and
Criminal Justice
Northeastern University School of Law
Michael Meltsner
Matthews Distinguished Univ. Professor of Law
Northeastern University School of Law
Colin Miller
Professor and Associate Dean for Faculty
Development
University of South Carolina School of Law
Eric Miller
Professor of Law
Loyola Law School, Los Angeles
Rachel Moran
Associate Professor of Law
University of St. Thomas School of Law
Louis Natali
Professor of Law Emeritus
Temple University Beasley School of Law
Samuel Newton
Assistant Professor of Law
University of Idaho College of Law
Jerry Norton
Professor Emeritus
Loyola University Chicago School of Law
Tim O’Neill
Professor Emeritus of Law
UIC John Marshall Law School
Anna Offit
Assistant Professor of Law
SMU Dedman School of Law

8A
Leroy Pernell
Professor of Law
Florida A&M University College of Law
Amanda Peters
Godwin Lewis PC Research Professor
Professor of Law
South Texas College of Law Houston
Eve Brensike Primus
Yale Kamisar Collegiate Professor of Law
University of Michigan Law School
William Quigley
Emeritus Professor of Law
Loyola University New Orleans College of Law
L. Song Richardson
Dean and Chancellor's Professor of Law
University of California, Irvine School of Law
Chris Roberts
Director, Criminal Defense Clinic
University of Texas School of Law
Ira P. Robbins
Professor of Law and Justice
American University Washington College of Law
Josephine Ross
Professor of Law
Howard University School of Law
David Rudovsky
Senior Fellow
University of Pennsylvania Carey School of Law
Leslie A. Shoebotham
Victor H. Schiro Distinguished Professor of Law
Loyola University New Orleans College of Law
Jonathan S. Simon
Lance Robbins Professor of Criminal Justice Law
University of California Berkley School of Law

9A

Maneka Sinha
Associate Professor of Law
Universtiy of Maryland School of Law
Abbe Smith
Scott K. Ginsburg Professor of Law
Director, Criminal Defense & Prisoner Advocacy
Clinic
Georgetown University Law Center
Dean A. Strang
Distinguished Professor in Residence
Loyola University Chicago School of Law
Colin Starger
Professor of Law
University of Baltimore School of Law
Ronald S. Sullivan, Jr.
Jess Climenki Clinical Professor of Law
Havrard Law School
Patrice Amandla Sulton
Professorial Lecturer in Law
The George Washington University Law School
Scott Sundby
Professor of Law & Dean's Distinguished Scholar
University of Miami School of Law
Katharine Tinto
Clinical Professor of Law
University of California, Irvine School of Law
Rodney Uphoff
Elwood L. Thomas Missouri Endowed Professor
Emeritus of Law
University of Missouri School of Law
Michael Vitiello
Distinguished Professor of Law
Pacific McGeorge School of Law

10A
Madalin K. Wasilczuk
Director, Juvenile Defense Clinic
J.Y. Sanders Assistant Professor of Professional
Practice
LSU Paul M. Hebert Law Center
Rebecca Wexler
Assistant Professor of Law
University of California, Berkeley, School of Law
Kenneth Williams
Professor of Law
South Texas College of Law Houston
Melanie Wilson
Dean Emeritus And Lindsay Young Distinguished
Professor of Law
University of Tennessee College of Law
Samuel Wiseman
Professor of Law
Penn State Law
Ronald Wright
Yancey Gulley Professor of Criminal Law
Wake Forest University School of Law
Ellen Yaroshefsky
Associate Dean for Research and Faculty
Development
Hofstra University Maurice Deane School of Law
Steven Zeidman
Professor of Law
CUNY School of Law
Adnan Zulfiqar
Associate Professor of Law
Rutgers Law School

